Exhibit 1.
The February 24, 2020 Order of the U.S. Court
of Federal Claims that denied my Application to
Proceed IFP and that ordered me to pay a filing
fee.

Case l:20-cv-00153-TCW Document 5 Filed 02/24/20 Page 1 of 1

Sn ti)t Uniteti States: Court of Jfebcval Claims!
No. 20-153C
(Filed: February 24, 2020)
$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$$ $
*
*
TATYANA EVGENIEVNA DREVALEVA,
*
*
Plaintiff,
*
*
v.
*
*
*
*
*

THE UNITED STATES,
Defendant.

ORDER
Currently pending before the Court is Plaintiff Tatyana E. Drevaleva’s application
to proceed in forma pauperis. Pursuant to 28 U.S.C. § 1915(a), the Court may authorize
the commencement and prosecution of a civil action without prepayment of fees and costs
by a person who, by affidavit, demonstrates that she is unable to pay such costs.
Ms. Drevaleva, however, has brought strikingly similar claims in other federal
courts, a majority of which were found to be frivolous and dismissed. In at least one appeal,
Ms. Drevaleva had her in forma pauperis status revoked. See Drevaleva v. U.S. Dep’t of
Vet. Affairs, et al.. No. C 18-03748 WHA (N.D. Cal. Filed Nov. 26, 2018). Ms.
Drevaleva’s repeated filings of frivolous complaints leads the Court to find that she is not
entitled to a waiver of the filing fee. Accordingly, Plaintiffs IFP Application is DENIED,
and Plaintiff shall submit her filing fee within ten days of this order, or her complaint will
be subject to dismissal.
IT IS SO ORDERED.

THOMAS C. WHEELER
Judge

7018 2290 0000 5183 8402

Exhibit 2.
The March 06, 2020 Order of the U.S. Court of
Federal Claims that dismissed my Complaint
No. l:2020-cv-00153-TW for my failure to pay a
filing fee.

Case l:20-cv-00153-TCW Document 7 Filed 03/06/20 Page 1 of 1

In tlje Uniteti states! Court of Jfe&etal Claims
No. 20-153C
(Filed: March 6, 2020)

TATYANA EVGENIEVNA DREVALEVA,
Plaintiff,
v.

*
*
*
*
*
*
*
*
*
*
*

THE UNITED STATES,
Defendant.

ORDER
On February 24, 2020, this Court ordered Ms. Drevaleva to pay the filing fee
associated with this case by March 5, 2020, because Ms. Drevaleva previously filed
strikingly similar claims in other federal courts that were dismissed as frivolous, malicious,
or for failure to state a claim. Diet. No. 5. Further, this Court informed Ms. Drevaleva that
failure to comply with the order would result in the dismissal of her complaint for failure
to prosecute under Rule 41(b) of this Court. As of this date, Ms. Drevaleva has not paid
her filing fee. Therefore, the Clerk is directed to dismiss Ms. Drevaleva’s complaint
without prejudice for failure to prosecute.
IT IS SO ORDERED.

jU, C. USl
THOMAS C. WPIEELER
Judge

Exhibit 3.
The May 20, 2020 Order of the U.S. Court of
Appeals for the Federal Circuit that affirmed
the March 06, 2020 Order of the U.S. Court of
Federal Claims.

Case: 20-1671

Document: 33

Page: 1

Filed: 05/20/2020

NOTE: This order is nonprecedential.

fHuiteb States Court of Appeals
for ttje Jfeberal Circuit
TATYANA E. DREVALEVA,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1671
Appeal from the United States Court of Federal Claims
in No. l:20-cv-00153-TCW, Judge Thomas C. Wheeler.
ON MOTION
Before O’MALLEY, WALLACH, and STOLL, Circuit Judges.
Per Curiam.
ORDER
Tatyana E. Drevaleva moves for an injunction pending
appeal and separately moves for leave to exceed the word
limit by 8,500 words for her motion. Having now consid­
ered the complaint, the judgment of the United States
Court of Federal Claims, and the opening brief, we think
summary affirmance is appropriate.

Case: 20-1671

2

Document: 33

Page: 2

Filed: 05/20/2020

DREVALEVA v. US

Ms. Drevaleva’s complaint alleges wrongdoing in rela­
tion to the Department of Veterans Affairs’ prior termina­
tion of her employment. On February 24, 2020, the Claims
Court denied Ms. Drevaleva’s application to proceed in
forma pauperis on the ground that she “has brought strik­
ingly similar claims in other federal courts, a majority of
which were found to be frivolous and dismissed.”
The Claims Court’s February 24th order denying her
motion for leave to proceed in forma pauperis, explained
that “Plaintiff shall submit her filing fee within ten days of
this order, or her complaint will be subject to dismissal.”
After she failed to do so, the case was dismissed without
prejudice for failure to prosecute pursuant to Rule 41(b) of
the Rules of the United States Court of Federal Claims.
She then timely appealed from that judgment.
We review a denial of an in forma pauperis request, as
well as the dismissal pursuant to Claims Court Rule 41(b),
for an abuse of discretion. See Bryant v. United States, 618
F. App’x 683, 685 (Fed. Cir. 2015); Colida u. Panasonic
Corp. of N. Am., 374 F. App’x 37, 38-39 (Fed. Cir. 2010)
(citing Denton v. Hernandez, 504 U.S. 25, 33-34 (1992)).
“[Sjummary disposition is appropriate” when it “is so
clearly correct as a matter of law that no substantial ques­
tion regarding the outcome of the appeal exists.” Joshua v.
United States, 17 F.3d 378, 380 (Fed. Cir. 1994).
A court may, in its discretion, require the payment of
the docketing fee from a litigant who has previously abused
the privilege of proceeding in forma pauperis by pursuing
repetitive or vexatious litigation. See In re Sindram, 498
U.S. 177, 180 (1991) (stating that a court “has a duty to
deny in forma pauperis status to those individuals who
have abused the system”); Butler v. Dep’t of Justice, 492
F.3d 440, 445 (D.C. Cir. 2007) (recognizing authority to

Case: 20-1671

Document: 33

Page: 3

Filed: 05/20/2020

DREVALEVA v. US

deny for a filer who abused the privilege by filing multiple
suits that were dismissed for failure to prosecute).1
The Claims Court found that Ms. Drevaleva falls
within that category, and we discern no error, let alone
abuse of discretion, in that conclusion. She has brought at
least five actions concerning her termination from the De­
partment, four of which were dismissed for failure to state
a claim, lack of subject matter jurisdiction, or on res judi­
cata grounds.2 And at least one other court has required
that she pay the docketing fee for abusing her in forma
pauperis status. See Drevaleva, No. 20-00820, slip op. at
*2, *3.

1
Sections 1915(e)(2)(B)(i), (ii), and (iii) of title 28 do
not, as Ms. Drevaleva suggests, speak to that authority, let
alone limit it. Instead, those provisions require a court to
“dismiss the case” if it determines that the allegation of
poverty is untrue or the action or appeal is frivolous, mali­
cious, fails to state a claim on which relief may be granted,
or seeks monetary relief against a defendant who is im­
mune from such relief. Those provisions are limitations on
the court’s ability to continue the adjudication of a case
that is already proceeding without payment of fees, and not
on the court’s authority to deny in forma pauperis status to
a litigant who appears to abuse the judicial process.
2
See Drevaleva v. Dep’t of Veterans Affairs, No. 1803748 (N.D. Cal. Filed Jun. 25, 2018); Drevaleva v. United
States, No. 19-01454 (N.D. Cal. Filed Mar. 20, 2019); Drev­
aleva v. Wilkie, No. 19-02665 (N.D. Cal. Filed May 16,
2019); Drevaleva v. Wilkie, No. 19-05927 (N.D. Cal. Filed
Sep. 23, 2019); Drevaleva v. United States, No. 20-00820
(N.D. Cal. Feb. 3, 2020). Ms. Drevaleva has filed ten ap­
peals in the United States Court of Appeals for the Ninth
Circuit, six of which were filed in Drevaleva v. Dep’t of Vet­
erans Affairs, No. 18-03748.

3

Case: 20-1671

Document: 33

Page: 4

Filed: 05/20/2020

DREVALEVA V. US

4

The Claims Court also acted well within its authority
under Rule 41(b) to dismiss after Ms. Drevaleva failed to
comply with the order directing her to pay the docketing
fee. Although Ms. Drevaleva contends that the deadline
was unclear, the Claims Court’s one-page order clearly ex­
plained that it was due within ten days of the order and
included “Filed: February 24, 2019” at the top of the order.
We also see no merit to Ms. Drevaleva’s contention that
the Claims Court erred in refusing to docket and consider
a March 9, 2020 submission, which she says was ten days
from the date she received the February 24th order. That
submission was filed after the court-imposed deadline had
passed and, in any event, did not include the filing fee.
Accordingly,
It Is Ordered That:
(1) The appeal is summarily affirmed.
(2) The motion for an injunction pending appeal is de­
nied.
(3) The motion for leave to exceed the word limit is
granted.
(4) All other pending motions are denied.
(5) Each side shall bear its own costs.

For the Court
May 20. 2020
Date
s25

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Exhibit 4.
The May 20, 2020 Judgment of the U.S. Court
of Appeals for the Federal Circuit that affirmed
the March 06, 2020 Order of the U.S. Court of
Federal Claims.

Case: 20-1671

Document: 34

Page: 1

Filed: 05/20/2020

fHntteb States: Court of Appeals!
for tfje jfeberal Circuit
TATYANA E. DREVALEVA,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1671
Appeal from the United States Court of Federal Claims
in No. l:20-cv-00153-TCW, Judge Thomas C. Wheeler.

JUDGMENT
THIS Cause having been considered, it is
Ordered and Adjudged:
SUMMARILY AFFIRMED

Entered By Order Of The Court
May 20, 2020

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Exhibit 5.
The July 21, 2020 Order of the U.S. Court of
Appeals for the Federal Circuit that denied my
Petition for Panel Rehearing and my Petition for
Rehearing En Banc.

Case: 20-1671

Document: 44

Page: 1

Filed: 07/21/2020

NOTE: This order is nonprecedential.

QHntteb States; Court of Appeals
for tlje Jfcireral Circuit
TATYANA E. DREVALEVA,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1671
Appeal from the United States Court of Federal Claims
in No. l:20-cv-00153-TCW, Judge Thomas C. Wheeler.
ON MOTION
Before PROST, Chief Judge, NEWMAN, LOURIE, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
HUGHES, and Stoll, Circuit Judges.
Per Curiam.
ORDER
Tatyana E. Drevaleva moves for the court to reconsider
the July 7, 2020 order denying her combined petition for
panel rehearing and rehearing en banc. She also requests

Case: 20-1671

Document: 44

2

Page: 2

Filed: 07/21/2020

DREVALEVA V. UNITED STATES

that the court stay the mandate until August 20, 2020, and
allow her to file additional materials by that date.
The motion was referred to the panel that heard the
appeal, and thereafter the motion was referred to the cir­
cuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The motion is denied.

For the Court
July 21. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Exhibit 6.
The July 28, 2020 Order of the U.S. Court of
Appeals for the Federal Circuit that denied my
Motion for Reconsideration.

Case: 20-1671

Document: 48

Page: 1

Filed: 07/28/2020

NOTE: This order is nonprecedential.

®mteb States Court of Appeals:
for tlje Jfcberal Circuit
TATYANA E. DREVALEVA,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1671
Appeal from the United States Court of Federal
Claims in No. l:20-cv-00153-TCW, Judge Thomas C.
Wheeler.
ON MOTION

Per Curiam.
ORDER
Tatyana E. Drevaleva moves for the court to reconsid­
er the July 7, 2020 order denying her combined petition
for panel rehearing and rehearing en banc and moves to
stay the issuance of the mandate.
Upon consideration thereof,

Case: 20-1671

Document: 48

2

Page: 2

Filed: 07/28/2020

DREVALEVA V. UNITED STATES

It Is Ordered That:
The motion is denied. The mandate shall issue forth­
with. No further requests for reconsideration will be
allowed.

For the Court
July 28. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Exhibit 7.
The July 28, 2020 Mandate.

Case: 20-1671

Document: 49

Page: 1

Filed: 07/28/2020

fHntteb States Court of Appeals
for tJjc Jfeberal Circuit
TATYANA E. DREVALEVA,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee

2020-1671
Appeal from the United States Court of Federal Claims
in No. l:20-cv-00153-TCW, Judge Thomas C. Wheeler.

MANDATE
In accordance with the judgment of this Court, entered
May 20, 2020, and pursuant to Rule 41 of the Federal Rules
of Appellate Procedure, the formal mandate is hereby
issued.

FOR THE COURT
July 28. 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

